Department of Homeland Security
   Ofﬁce of Inspector General

        Review of the National Bio and Agro-Defense 
 

              Facility Site Selection Process
 





OIG-11-13                                      November 2010
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                       NOV 17 2010                            Security

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (GIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses issues pertaining to the department's site selection process for the
National Bio and Agro-Defense Facility. It is based on interviews with employees ana
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.

                                      ~~~,~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2 
 


Results of Review ................................................................................................................4 
 


     DHS Complied with Appropriation Authority and Other Requirements ......................5 
 


     DHS Fairly Evaluated and Rated Prospective Sites Using A Qualitative and 

      Quantitative Scoring Process ....................................................................................11 


     Meetings with the Under Secretary Created Perceptions That Some Consortia 

      Gained an Unfair Advantage ....................................................................................27 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................32 
 

     Appendix B:           Management Comments to the Draft Report .......................................33 
 

     Appendix C:           NBAF Chronology...............................................................................35 
 

     Appendix D:           Major Contributors to this Report ........................................................38 
 

     Appendix E:           Report Distribution ..............................................................................39 
 


Abbreviations

     A/C/O            Acquisition/Construction/Operations 
 

     APHIS            Animal and Plant Health Inspection Service 
 

     ARS              Agricultural Research Service 
 

     BSL              Biosafety Level        
     

     CEQ              Council on Environmental Quality 
 

     DHHS             Department of Human and Health Services 
 

     DHS              Department of Homeland Security 
 

     DOD              Department of Defense
 

     EIS              Environmental Impact Statement 
 

     EOI              Expressions of Interest 
 

     FAD              Foreign Animal Diseases 
 

     FAQ              Frequently Asked Questions 
 

     FAR              Federal Acquisition Regulations
 

     HBAC             Kansas (Heartland Bio Agro Consortium) 
 

     HHS              Health and Human Services 
 

     HSPD-9           Homeland Security Presidential Directive 9 
 

     KBA              Kansas Bioscience Authority
 

     NBAF             National Bio and Agro-Defense Facility 
 

     NEPA             National Environmental Policy Act 
 

PIADC   Plum Island Animal Disease Center
ROD     Record of Decision
S&T     Science and Technology
USDA    U.S. Department of Agriculture




                                   I


OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                In January 2006, the Department of Homeland Security (DHS)
                requested expressions of interest from government agencies,
                industry, academia, and other parties and organizations interested
                in proposing a location to build a new National Bio and Agro-
                Defense Facility (NBAF). Twenty-nine consortia responded.
                Following a three-year site evaluation process, on January 16,
                2009, DHS selected the Manhattan Campus site in Manhattan,
                Kansas, as the preferred NBAF site. Members of Congress wrote
                the Inspector General to express concerns that the NBAF site
                selection process appeared to be biased and inconsistent with
                federal law, and requested that we review the process.

                DHS carried out the site selection process fairly, and we did not
                identify any evidence of bias. It adhered to requirements contained
                in congressional appropriations and the National Environmental
                Policy Act of 1969. It followed a pre-approved site selection plan
                consistent with federal guidelines for identifying future
                government facilities. Federal subject matter experts established
                sound evaluation criteria that resulted in comprehensive
                assessments of all prospective sites. DHS informed the public of
                the importance of in-kind contributions and weighed them fairly.
                We determined that the former Under Secretary for Science and
                Technology’s (Under Secretary) decisions during the process were
                not pre-determined.

                Meetings between elected officials and the Under Secretary created
                perceptions that some consortia gained an unfair advantage during
                the site selection process. We could not substantiate that these
                meetings affected the site selection process. In addition, we
                determined that the Under Secretary’s appointment of a
                representative of the Kansas Heartland Bio Agro Consortium to the
                Homeland Security Science and Technology Advisory Committee
                was not an attempt to influence, and did not influence, the site
                selection process. We make no recommendations in this report.




                 Review of the National Bio and Agro-Defense Facility 
 

                                Site Selection Process
 


                                        Page 1
 

Background
                          Homeland Security Presidential Directive 9 (HSPD) “Defense of
                          United States Agriculture and Food” establishes a national policy
                          to defend the nation’s agriculture and food system against terrorist
                          attacks, major disasters, and other emergencies. HSPD-9 mandates
                          that the Secretary of the Department of Homeland Security
                          accelerate and expand development of current and new
                          countermeasures against the intentional introduction or natural
                          occurrence of catastrophic animal, plant, and zoonotic diseases
                          (disease transmitted from “animal” to humans).

                          Plum Island Animal Disease Center (PIADC) located on the
                          northern tip of Long Island, NY, performs much of the Nation’s
                          current animal disease research. Built in the 1950s, PIADC is
                          nearing the end of its lifecycle, and it cannot accommodate
                          research on highly pathogenic agents and zoonotic diseases. DHS
                          proposed to build a new National Bio and Agro-Defense Facility
                          (NBAF) to be co-located with the U.S. Department of Agriculture's
                          Animal and Plant Health Inspection Service--Veterinary Services
                          and Agricultural Research Service. Co-locating the NBAF with
                          USDA will enable research, diagnostics, and responses to
                          outbreaks in agricultural animals from a single facility.

                          The proposed NBAF will consist of an integrated high-
                          containment Bio Safety Level-4 facility with laboratories for an
                          estimated 250 to 350 scientists and support staff.1 DHS began
                          designing the facility in 2009, and expects to begin construction of
                          the central utility plant in FY2011. DHS expects construction of
                          the NBAF to be completed by FY2016 and fully operational in
                          FY2018. DHS estimates the project may cost as much as $775
                          million.

                          The DHS Appropriations Act of 2006 (PL 109-90), authorized
                          DHS to select a future NBAF site. In 2006, DHS requested
                          Expressions of Interest (EOI) submissions from federal, state and
                          local government agencies, industry, academia, and other
                          interested parties and organizations. DHS received 29
                          submissions. It assessed the submissions against four primary site
                          evaluation criteria:

1
  A biosafety level is the extent of the biocontainment precautions an enclosed facility must have to study
dangerous biological agents. Levels of containment range from the bio safety level 1 (lowest) to bio safety
level 4 (highest).



                            Review of the National Bio and Agro-Defense Facility 
 

                                           Site Selection Process
 


                                                   Page 2
 

    •	 Proximity to research capabilities;
    •	 Proximity to workforce;
    •	 Community acceptance/cost sharing/integrated 
 

       partnerships, and; 
 

    •	 Acquisition/construction/operations requirements.

An interagency working group composed of technical specialists
from DHS, USDA, and other federal agencies developed the
criteria and sub-criteria. In August 2006, DHS narrowed the list of
sites to 18 sites (one consortium subsequently withdrew). An
evaluation committee comprised of federal agency employees
visited the 17 sites and recommended four sites to the Under
Secretary. The Under Secretary added an additional site.

In July 2007, S&T initiated an Environmental Impact Statement
(EIS) process to evaluate the potential environmental
consequences of constructing and operating the NBAF at the five
sites, plus Plum Island. The sites were:

    •	   South Milledge Avenue site; Athens Georgia;
    •	   Manhattan Campus Site; Manhattan, Kansas;
    •	   Flora Industrial Park Site; Flora, Mississippi;
    •	   Umstead Research Farm Site; Butner, North Carolina; and,
    •	   Texas Research Park Site; San Antonio, Texas.

The Under Secretary decided to include Plum Island because it
“appear[ed] to meet the NEPA requirement that the proposing
Federal agency evaluate the range of all “reasonable alternatives”
to a proposed action.”

During the 60-day EIS scoping period from July to September
2007, DHS sought public comments and conducted public
meetings at each site. DHS received more than 3,870 comments
during the period. DHS addressed concerns about public health in
the event of an accident, potential effects on the population, and
the ability of affected communities to evacuate the area. Other
issues under review included proximity of animals susceptible to
the diseases studied, the environmental effects to biological and
natural resources, and the resources required for the construction
and operation of the NBAF, including in-kind contributions to
offset infrastructure costs. In December 2008, DHS published the
NBAF Final EIS. On January 16, 2009, DHS published its Record



 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                        Page 3

               of Decision (ROD), which announced the Manhattan Campus site
               in Manhattan, KS as the preferred NBAF site.


Results of Review
               DHS evaluated and rated prospective sites fairly, and we did not
               identify any evidence of bias. It sufficiently documented the
               process used to select Manhattan, KS as the future location of the
               National Bio and Agro-Defense Facility.

               DHS complied with guidance contained in congressional
               appropriations, completed the NBAF Environmental Impact
               Statement (EIS) in accordance with the National Environmental
               Policy Act, and followed a department-approved site selection plan
               consistent with the General Services Administration’s procedures
               for selecting prospective sites for future government facilities.
               With the assistance of other federal subject matter experts, DHS
               established sound evaluation criteria that resulted in
               comprehensive written assessments of all prospective sites. A
               steering committee led by the Science and Technology’s Office of
               National Laboratories and consisting of senior federal officials,
               unanimously recommended the Manhattan Campus site to the
               then-Under Secretary for Science and Technology and as the
               Selection Authority, he accepted the committee’s recommendation.

               In July 2007, during DHS’ process to select the five final sites, the
               Under Secretary added the Flora Industrial Park site in Flora,
               Mississippi and subsequently added the Plum Island site.
               Although the Under Secretary had the discretion to include
               additional sites if he determined that it was in the best interest of
               the government, the addition of the Flora, Mississippi site created
               the perception that he disregarded the steering committee’s
               analysis in favor of this site. There was no evidence that the Under
               Secretary favored any particular site for other reasons or
               inappropriately influenced the steering committee’s selections.
               Increasing the number of finalists from five to six had no affect on
               which site was ultimately selected.

               Members of Congress and some of the consortia questioned
               whether DHS fully informed the public of the importance of in-
               kind contributions. DHS clearly stated in the EOI that submissions
               were the first step in a process, and that it would ask for more



                Review of the National Bio and Agro-Defense Facility 

                               Site Selection Process


                                       Page 4

     information from the interested consortia during subsequent stages
     of the site assessment process, which it did. Following responses
     to the EOI, DHS communicated that it preferred, but did not
     require, in-kind contributions or other offers of support and it
     collected and assessed consortia’s in-kind contributions as a sub-
     criterion.

     DHS met all National Environmental Policy Act (NEPA) required
     timeframes for the public comment periods. However, some
     consortia perceived that DHS hastily considered last-minute
     comments to the Final Draft EIS, when it issued the Final EIS only
     days after the comment period closed. We did not determine that
     the short turnaround time meant DHS did not consider all
     comments. NBAF officials noted that DHS responded to late
     comments received after the public comment period to the extent
     practicable.

     There was confusion regarding ground rules for meeting with the
     Under Secretary. The fact that elected officials met with the Under
     Secretary during his visits to prospective NBAF sites and at his
     Washington, DC office, created a perception that some consortia
     had an unfair advantage in the NBAF site selection. In addition, we
     determined that the Under Secretary’s appointment of a
     representative of the Kansas Heartland Bio Agro Consortium to the
     Homeland Security Science and Technology Advisory Committee
     was not an attempt to influence the site selection process.


DHS Complied with the Appropriation Authority and
Other Requirements
     DHS complied with guidance contained in Congressional
     appropriations, completed the NBAF Environmental Impact
     Statement (EIS) according to the National Environmental Policy
     Act , and devised and followed a department-approved site
     selection plan consistent with the General Services
     Administration’s procedures for selecting prospective sites for
     future government facilities.

     DHS’ Authority to Select a Future NBAF Site

     The Department of Homeland Security Appropriations Act of 2006
     P.L. 109-90, authorized DHS to select a future NBAF site. The



      Review of the National Bio and Agro-Defense Facility 
 

                     Site Selection Process
 


                             Page 5

appropriation did not include acquiring the land for the site or
initiating the construction of the NBAF. The site selection process
did not constitute a procurement activity and was not subject to
Federal Acquisition Regulations (FAR).

The Act provided DHS $23 million “to select a site for the
National Bio and Agro defense Facility” and to “perform other pre-
construction activities.” Fiscal Year 2007 House Committee
Report 109-699 stipulated that DHS “submit a project schedule,
including expected completion dates and funding requirements for
all phases of the project to the Committee within 45 days after the
date of enactment of this act.”

In response, in December 2006, DHS proposed a plan to select the
future facility location, known as the National Bio and Agro-
Defense Facility Project Schedule. The plan included the project
schedule, expected completion dates, and a preliminary funding
requirement estimate of $451 million based on a 500,000 square
feet facility. The cost estimate did not include the costs of
infrastructure or related site-specific characteristics, or for
decommissioning the PIADC. According to DHS’ report to
Congress, under United States Code Title 41, Section 14, DHS
“did not have the statutory authority to acquire the land upon
which the NBAF would be built,” and therefore NBAF funding
and activities were restricted to site selection and pre-construction
activities leading to the identification of a site for a future NBAF.

The NBAF project schedule described the Science and Technology
Office of National Laboratories’ responsibility to develop a non­
site-specific conceptual design, including the facility concept,
technical requirements, and footprint. The schedule established
key milestones for the site assessment and selection process and
targeted October 2008 for a final decision. DHS envisioned the
site selection plan as a multi-tiered, multi-phased approach
encompassing the NBAF conceptual design and feasibility study,
site visits to prospective locations, and issuing a Notice of Intent
for the Environmental Impact Study, among other key activities.

A former Deputy Secretary for DHS directed S&T to pursue in-
kind contributions for NBAF sites and infrastructure to help offset
future budget appropriations requested for construction. In its
report to Congress, DHS discussed the process to accept in-kind or
other contributions. DHS is authorized to accept gifts such as in-
kind contributions and land under the authority granted the


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                        Page 6

Secretary pursuant to Title 6 of the United States Code, Section
453, and section 507 of Public Law 108-90, DHS Appropriations
Act of 2004.

In subsequent appropriations, Congress directed DHS to conduct
further risk and threat analysis. Specifically, DHS’ Fiscal Year
2009 Appropriations Act (PL 110 -329) stipulated that none of the
available NBAF funds “shall be obligated for construction of a
National Bio and Agro-defense Facility…until the Secretary of
Homeland Security completes a risk assessment of whether foot­
and-mouth disease work can be done safely on the United States
mainland and this assessment is reviewed by the Government
Accountability Office.” As of April 2010, Congress had not
appropriated funds for the construction of the NBAF.

DHS Designed and Implemented the NBAF Site Selection Process
According to Accepted Federal Practices

DHS based its site selection plan on the General Services
Administration’s Site Selection Guide, and the contributions of an
interagency work group comprised of DHS S&T, Health and
Human Services (HHS), and the United States Department of
Agriculture (USDA) Animal and Plant Health Inspection Service
(APHIS) and Agricultural Research Service (ARS). The guide is
used by GSA’s real estate and design professionals, federal
agencies, and stakeholders. The guide instructs users how to
acquire future sites, the guide outlines the site selection process,
presents best site selection practices, and identifies potential
participants, their roles, and when various activities of the process
should occur. It provided overarching guidance for the NBAF site
review process. DHS’ plan described the NBAF mission criteria,
sub-criteria, department preferences, and the process it would
follow to select a site. DHS program officials responsible for
designing and managing the NBAF process adhered to these
standards to achieve a fair and transparent site selection process.

DHS convened the interagency work group to develop the NBAF
site evaluation criteria by addressing the key requirements for the
NBAF facility. The interagency group’s goal was to ensure that
the future NBAF met the interdependent needs of DHS and each
member’s respective agency to protect the nation against biological
threats to human health and animal agriculture. Federal officials—
subject matter experts with biosafety, research, and facility design
and operations experience—established the evaluation criteria to


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                        Page 7

guide the assessment of potential NBAF sites. Everyone we
interviewed commented that the criteria were widely accepted by
the working group’s respective agencies, industry, academia, and
other parties and organizations.

DHS Completed the Environmental Impact Statement According
to the Council on Environmental Quality Regulations and NEPA

Members of Congress and consortia raised concerns regarding
whether the draft and final NBAF Environmental Impact
Statements complied with NEPA. They also expressed a concern
that the NBAF EIS did not provide enough detailed information to
allow for substantive decision-making.

NEPA requires that all federal agencies prepare detailed statements
assessing the environmental impact of and alternatives to major
federal actions significantly affecting the environment. After a
final EIS is prepared and at the time of its decision, a federal
agency will prepare a public record of its decision addressing how
it incorporated the EIS’ findings into the agency's decision-making
process, including consideration of alternatives.

DHS documented each step of the site selection and the EIS
processes, and maintained a complete administrative record of
them. DHS posted records of public meetings, the Draft EIS, the
Final EIS, and other supporting documentation and technical
studies on its website and made them available to the public. S&T
also initiated additional studies and reviews to support the EIS
process and its final site selection decision.

DHS assembled experienced federal managers to manage and
oversee the EIS process. It hired a contractor to conduct the EIS.
We did not review the contractor’s technical performance.
However, the contractors and the federal employees involved with
scoping activities, public meetings, and review of the Draft EIS
described it as one of the most comprehensive and transparent EIS
projects they had conducted.

We determined that DHS’ EIS process complied with the Council
on Environmental Quality’s regulations and the National
Environmental Policy Act of 1969. The Council on Environmental
Quality (CEQ) coordinates federal environmental efforts and
works closely with agencies and other White House offices in the
development of environmental policies and initiatives. Congress


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                        Page 8

established the council within the Executive Office of the President
as part of NEPA and the Environmental Quality Improvement Act
of 1970 provided additional responsibilities. DHS adhered to all
timeframes for public comment period durations established by
NEPA and CEQ regulations and requirements. DHS also
evaluated and reported on a “No Action Alternative,” which would
keep national biodefense research operations at the Plum Island
facility.

On July 31, 2007, as required under NEPA, DHS published in the
Federal Register (72 FR 41764-41765) a Notice of Intent to prepare
the NBAF EIS to evaluate the environmental impacts of
constructing and operating the proposed NBAF at one of the
reasonable site alternatives. Subsequently, DHS conducted
scoping meetings near the six site alternatives, along with one
regional meeting in Washington, DC. More than 1,350 people
attended the scoping meetings. Nearly 300 people provided oral
comments at the public meetings, and DHS received more than
3,870 comments during the scoping period. The 60-day scoping
period ended on September 28, 2007. DHS documented the
scoping process and related issues in the February 2008, NBAF EIS
Scoping Report, and posted the report on its website.

On June 27, 2008, as also required under NEPA, DHS published
the Notice of Availability of the NBAF Draft EIS in the Federal
Register (73 FR 36540-36542). The public comment period
extended through August 25, 2008. DHS held 13 public meetings
in July and August 2008 at the same locations as the
aforementioned scoping meetings or at nearby alternate locations.
During the 60-day NBAF Draft EIS public comment period, more
than 1,770 individuals attended the public meetings and 378
individuals provided DHS oral comments. In total, the public
comment period yielded, and DHS analyzed, more than 5,400
individual written and oral comments.

DHS conducted programmatic and planning studies in 2008 in
addition to the NEPA requirements. It used relevant information
from these reports in the preparation of the NBAF Final EIS and in
committee and the Under Secretary’s analysis of the final group of
potential sites. These studies and reports were:

         (1) Threat and Risk Assessment;
         (2) Site Cost Analysis;
         (3) Site Characterization Study;


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                        Page 9

         (4) Plum Island Facility Closure and Transition Cost Study
             dated July 2008;
         (5) The Final Selection Memorandum for Site Selection for
             the Second Round Potential Sites for the National Bio
             and Agro-Defense Facility (NBAF); and,
         (6) The Plum Island Memorandum for the Record.

In August 2008, DHS posted all of the reports on its website (with
redactions) except the Threat and Risk Assessment, which was
designated For Official Use Only.

In December 2008, as required by 40 CFR 1502.14, DHS
identified the NBAF Preferred Alternative Selection and described
its rationale in the NBAF Final EIS. In its Preferred Alternative
Selection memorandum, which DHS published on its website,
DHS described in detail the basis for and process used to select the
Preferred Alternative. DHS clarified that according to CEQ
regulations the environmentally preferred alternative is the
alternative that causes the least impact to the environment and best
protects, preserves, and enhances historic, cultural, and natural
resources.

In the EIS, DHS identified the “No Action Alternative,” the
continued operation of the PIADC, as the environmentally
preferred alternative because it would have the least environmental
impact—only minor and temporary effects from construction of
infrastructure upgrades—in the short term. However, DHS
determined that the PIADC site did not satisfy the NBAF’s
purpose or mission.

DHS distributed approximately 3,000 copies of the NBAF Final
EIS and NBAF Final EIS Executive Summary to members of
Congress and other elected officials; federal, state, and local
government agencies; native American representatives; public
interest groups; public reading rooms; and to individuals. DHS
also posted the Final EIS and the Executive Summary on its
website.

In January 2009, pursuant to 40 CFR Parts 1500-1508, and DHS
Directive 023-01 (Environmental Planning Program), DHS
prepared and published a Record of Decision (ROD) on the
proposed site, construction, and operation of the NBAF in
Manhattan, KS. The ROD presented the information and analysis
developed in the NBAF Final EIS including public comments, and


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 10

     consideration of such factors as national policy, site evaluation
     criteria, threat and risk assessment, costs, security, and other
     programmatic requirements. The ROD included written responses
     to questions, issues and concerns submitted in response to the Final
     EIS by the consortia offering NBAF sites. The ROD also
     described DHS’ review and consideration of comments and
     concerns submitted by the public. DHS collected and responded to
     public comments during the EIS draft development and final EIS
     publication.

     DHS met all Timeframes for the Public Comment Periods
     Required Under NEPA

     Congress raised concerns that DHS did not conform to NEPA
     requirements during the 30-day comment period. DHS complied
     with NEPA’s comment period requirements. It met all timeframes
     and expanded comment periods because of the length and
     complexity of the EIS scoping process. For example, DHS
     expanded the EIS scoping period deadline by 30 days and the
     deadline to respond to the Draft EIS by 15 days. Although DHS
     expanded the public comment periods for the scoping period and
     the draft EIS, it did not expand the comment period for the final
     EIS because it believed doing so was unnecessary. DHS made the
     site selection only days after the final comment period ended. On
     December 12, 2008, DHS published its Notice of Availability for
     the NBAF Final EIS in the Federal Register. On January 16, 2009,
     it published its ROD, only four days after the comment period
     ended. However, the timing of the ROD fueled perceptions that
     DHS did not adequately consider comments on the Final EIS. We
     could not substantiate these perceptions.

DHS Fairly Evaluated and Rated Prospective Sites Using a
Qualitative and Quantitative Scoring Process
     Members of Congress and some consortia questioned DHS’ site
     selection scoring process. Congress asked us to review how
     precisely did DHS assess, weigh, and score the criteria and
     financial support and whether the process was transparent. They
     also questioned how DHS convened its steering committee and
     whether its members were qualified.

     We evaluated DHS’ scoring methodology and determined that it
     carried out the process fairly and without bias. DHS officials and



      Review of the National Bio and Agro-Defense Facility 
 

                     Site Selection Process
 


                            Page 11

other federal subject matter experts with extensive experience in
facility design and operations, bioresearch, and bio-safety
established evaluation criteria that were sound, widely accepted,
and resulted in comprehensive assessments of all prospective sites.
DHS also conducted site visits in a fair and transparent manner.
We did not determine that the Under Secretary’s decision to add
two sites during the list of final sites was arbitrary, pre-determined,
or an attempt to influence the steering committee. In addition, we
determined that DHS informed the public of the importance of in-
kind contributions and its process for collecting, assessing, and
scoring in-kind contributions from interested consortia was
reasonable.

The Scoring/Evaluation Process

DHS executed each phase of the site selection process—evaluation
of consortia responses to the EOI and the first cut from 29 to 18
sites, the second cut from 17 to 5 sites, and the EIS process leading
to the final decision—in a logical and transparent fashion. DHS
documented each step of each committee and its individual
members’ assessment and scoring process. Except for not
disclosing some details supporting the steering committee’s
evaluation and ranking of the final sites under consideration, DHS
clearly articulated its criteria, sub-criteria, and preferences and how
it weighed and scored them. The scoring process became more
refined and detailed with each round. The Under Secretary
considered the recommendations of the steering committee before
making his decision.

DHS Reviewed Responses to the Request for Expressions of
Interest Thoroughly

On March 31, 2006, DHS received 29 EOI submissions from 24
consortia in response to the EOI. On May 24, 2006, to guide its
review of the submissions, DHS approved and issued an
Expression of Interest Selection Plan for Potential Sites for NBAF.
The plan identified and guided the selection of the steering and
criteria evaluation committees and their process to review the
prospective NBAF sites who responded to the initial EOI. The
plan identified and defined the role of the Selection Authority, to
include responsibility for making the final site selection. The June
2006 Results of NBAF EOI Review, described how the committee
considered each of the consortia proposals. We determined that




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 12

the criteria committees and steering committee adhered to the plan
and documented their decisions.

The plan described the composition of the EOI Evaluation Board,
which included a steering committee, three criteria committee
chairpersons, the criteria committee members as well as their
duties and functions. DHS selected federal agency staff with
relevant expertise to conduct the NBAF site selection process. All
“voting” committee members and chairpersons were federal
employees and criteria committee members represented multi-DHS
component offices including S&T, Office of the Chief Medical
Officer, Management, Safety and Health, Asset Management, and
the Coast Guard, as well as agencies from DOD, USDA, and HHS.
To ensure objectivity and rigor in the review process, DHS
selected members of the steering and criteria committees based on
their technical and professional skill backgrounds. DHS asserted
that it vetted these individuals for any past or on-going associations
with the consortia, allied organizations, or educational institutions
within those states who had responded to the EOI.

The plan set forth the site evaluation process, criteria factors and
sub-factors derived from NBAF mission requirements. It also
defined the adjectival rating system of excellent to unsatisfactory
that individual committee members would apply to each site
proposal and for consensus committee scoring. It contained a
review sheet to rate the sites.

DHS considered each prospective site’s proximity to research
capabilities applicable to the NBAF mission, to be the most
important criteria. It considered proximity to workforce,
acquisition/construction/operations (A/C/O), and community
acceptance/cost sharing/integrated partnerships to be equal in
importance. The steering committee established the three
evaluation committees: research and workforce; community
acceptance; and A/C/O.




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 13
 

Table 1: Site Evaluation Criteria




The A/C/O criterion included sub-criteria for: (1) land acquisition
and development potential; (2) environmental compatibility,
including the presence of existing environmental concerns
regarding contamination or environmentally sensitive areas; and
(3) adequacy of utility infrastructure. Cost-sharing and in-kind
contributions or support was a sub-criteria factor under
consideration in the assessment of each prospective site’s
community acceptance factor. As part of this sub-criteria,
committee members assessed the consortia’s proposed in-kind,
matching, or third-party financing contributions. During the EOI
submission review, DHS did not collect additional information
about possible contributions from the consortia to evaluate their
responses.

Individual criteria committee members were responsible for
assessing each site’s strengths, weaknesses, and deficiencies
against one of the evaluation criteria. After committee members
evaluated the sites individually, their entire committee discussed
each site and produced a consensus adjectival rating, which ranged
from excellent to unsatisfactory. Each criteria committee
chairperson was required to report their committee’s rationale for


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 14

their adjectival ratings to the steering committee and document
their analysis of the strengths, weaknesses, deficiencies and risks
to support the assignment of the adjectival rating. Each committee
documented its basis for the top ratings under each criterion for the
sites selected to continue the process and provided reasons why it
did not recommend the other sites for consideration.

The steering committee discussed the individual committee chair’s
reports and based on numerical scores given to each site,
recommended in rank order its site preferences to the Under
Secretary. On August 9, 2006, DHS selected 18 of the initial 29
sites for further review and evaluation. The former Under
Secretary joined DHS in August 2006, and therefore was not
involved in the initial cut from 29 to 18 sites.

DHS Documented its Review of the 18 Sites That Advanced to the
Second Round

On December 8, 2006, DHS communicated specific and detailed
instructions to the 12 consortia representing the 18 sites still under
consideration regarding “(1) additional information to complete the
next phase of the evaluations; (2) DHS’ preferences for certain
criteria; (3) instructions on how to submit the requested
information; and (4) information on the next steps in the process.”
Responses were due by February 16, 2007. DHS stated that it
would give strong preference to sites:

    •	 Within a comprehensive research community with existing
       research programs in areas related to the NBAF mission
       requirements (veterinary, medical and public health, and
       agriculture);
    •	 Within proximity to skilled research and technical staff
       with expertise in biological and agricultural research
       facilities operations;
    •	 Within proximity to training programs to develop skilled
       research and technical staff with the needed expertise;
    •	 With title to a minimum 30-acre site deeded at no cost or
       minimal cost to the federal government, either by in-kind
       contribution, sale, or quit claim, where DHS could
       construct the entire NBAF;
    •	 With in-kind contributions offered by the consortium, state
       government, local government, or private entities such as
       deeded land at no cost rather than sale, new utility



 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 15

           provisions and/or upgrades, sewer, electricity, water, and
           new roadways;
        •	 With a proposing consortium or other organizations that
           will assist DHS in the NEPA process to conduct the
           environmental analysis at the proposed site; and,
        •	 With a proposing consortium that demonstrates local and
           national agriculture stakeholder and community member
           support or, at a minimum, does not oppose locating the
           NBAF at the proposed site.

    In February 2007, DHS issued its Site Selection Plan for the
    Second Round Potential Sites for the National Bio and Agro-
    Defense Facility. The plan specified an eight-step process DHS
    would follow to review the remaining sites before the second cut,
    and determine which sites would undergo the NEPA-mandated
    Environmental Impact Statement process. This plan was very
    similar to the methodology DHS used to evaluate responses to the
    EOI. It provided specific detailed descriptions and expectations
    for each step of the site assessment activity. The steering
    committee chair oversaw and coordinated the entire evaluation
    process, and steering committee members each chaired one of the
    three criteria committees. DHS used the same three criteria
    committees as discussed above.

Chart 1: 2nd Round Selection Process




    However, the second round differed from the first round in several
    respects. First, DHS sought and considered additional information
    from the consortia related to the four criteria. Second, DHS
    evaluation teams visited each site. Third, the criteria committees



     Review of the National Bio and Agro-Defense Facility 
 

                    Site Selection Process
 


                           Page 16

not only provided the steering committee an adjectival rating, but
also included a numeric rating in the written assessment of each
site to evaluate and rank the sites. Finally, the plan called for the
steering committee to reduce the list of sites and forward their
recommendations to the Selection Authority.

With respect to the numerical rating, S&T developed an evaluation
tool—a computer generated database—to provide a transparent
process from individual reviewers through the final selection. In
addition, the tool helped reviewers track and report the strengths,
weakness, and deficiencies of each site, using the criterion. We
learned how reviewers used the tool, and we accessed the system
to review samples of scoring data from each reviewer.

We confirmed that at least initially, each criteria committee
member individually reviewed all of the data and information
collected on each site for their respective criteria. Individual
reviewers had access to the system to assign a numerical score.
These numerical consensus ratings corresponded with an adjectival
rating, ranging from excellent (90-100) to marginal (50-69).
Reviewers were able to enter comments in the database, as well as
address the site’s strengths, weaknesses and deficiencies.
Reviewers could not see the scores and comments of other
committee members during their review.

After assigning scores to each sub-criterion, the system calculated
the numerical score to obtain a weighted average. Like the first
round, the criteria committees also used consensus ratings. Each
criteria committee’s members collaborated to review the adjectival,
numerical, and written commentary on each of the sites. Based on
these discussions, the committees derived a consensus score for
each sub-criterion and calculated the weighted average.
Committee chairs consolidated the consensus comments and
ratings into committee reports for consideration by the steering
committee. The steering committee reviewed the criteria
committee ratings and evaluation comments, individually and as a
group, for each of the potential NBAF sites and identified
information to clarify or validate during up-coming site visits.

The evaluation tool was used for pre-site visits and post site visits;
both consensus ratings were recorded. After the steering
committee went on site visits to confirm and verify information in
consortia’s proposals, it reevaluated the scores. It could change the
scores based on new information uncovered through site visits.


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 17

When the steering committee changed a score, it documented its
rationale in the evaluation tool. We did not identify any
discrepancies in the scores from each criteria committee report and
scores in the Final Selection Memorandum, which outlined the
steering committee’s recommendations.

DHS Reviewed the Alternative Sites to Recommend the Preferred
Alternative and Documented Its Analysis

DHS used a four-step process to evaluate the remaining sites and
determine the preferred site. It did not use numerical scoring in the
final selection. An adjectival rating, represented by color was
assigned to each site, ranging from green, excellent to red,
satisfactory. During this process, the steering committee reviewed
the ratings from the first round selections, evaluated new data, the
Threat and Risk Assessment, and EIS; and lastly, determined
overall site ratings and rankings. The steering committee did not
change any of the “research” and “workforce” scores. However,
scores were adjusted for A/C/O and community acceptance given
the committee’s knowledge of new information on certain sites.

We did not identify any evidence of ratings changes without a
corresponding rationale. The steering committee documented all
adjustments in the ROD. For example, the steering committee
reduced one consortium’s rating for community acceptance, given
emerging residential opposition. Explanations for such changes
were addressed in the ROD.

The Under Secretary Acted within His Authority, and Decisions
were Transparent

The plan described in very specific terms the duties and decision
process for the Under Secretary as the Selection Authority. It
clarified that the Selection Authority shall only base a decision on
the information in the first round EOI responses, the responses to
DHS’ December 2006 “Additional Information Request”
memorandum to consortia, and data validation and site
observations gathered during the site visits performed by the
steering committee for the 18 potential NBAF sites. The Under
Secretary could only weigh public records, media reports, or
information generated by third party sources approved and
reviewed by the steering committee into his final decision.




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 18

                            The Under Secretary also considered the steering committee’s
                            recommendations. He based his final selection on information
                            received in each round. He made the final selection after each EIS
                            process was completed and the steering committee made its final
                            recommendation. This was consistent with GSA guidelines, which
                            stated, “Developing support among decision-makers and obtaining
                            project approvals are necessary for the success of the project.
                            Identifying who is responsible for making each decision and
                            recognizing when decisions are needed are equally important.”2

                            DHS documented all of these decisions in the ROD, released to the
                            public on January 16, 2009. It stated that the Under Secretary’s
                            decision was determined by:

                                   (1) 	 The site's ability to satisfy the evaluation criteria
                                         published in the EOI;
                                   (2) 	 The ability to satisfy DHS’ preferences (including in-
                                         kind contributions to offset infrastructure costs)
                                         communicated to all second round potential NBAF
                                         sites;
                                   (3) 	 Confirmation of the site offers for site infrastructure;
                                   (4) 	 The environmental impacts identified in the NBAF
                                         Final EIS; and,
                                   (5) 	 Information contained in supporting documents
                                         including the Threat and Risk Assessment, Site Cost
                                         Analysis, Site Characterization Study, and The Plum
                                         Island Facility Closure and Transition Cost Study.

                            DHS reported in the ROD that the EIS analysis indicated that there
                            would be “very little difference in environmental impacts” among
                            the other five site alternatives. The ROD noted “a lack of strong
                            differentiation” between the finalist sites regarding the EIS and the
                            threat and risk assessment.” Consequently, the Under Secretary
                            wanted to select a site that would “optimize the capability to
                            diagnose and cure large animal diseases” and was proximate to
                            research capabilities. The Manhattan Campus site in Manhattan,
                            KS:

                                   •	 Best met its mission needs due to its proximity to Kansas
                                      State University, its Colleges of Veterinary Medicine and
                                      Agriculture, and the newly constructed Bio-Security
                                      Research Institute;

2
    General Services Administration’s Guidelines for Decision Making, p.16.



                             Review of the National Bio and Agro-Defense Facility 
 

                                            Site Selection Process
 


                                                   Page 19
 

       •	 Was among the least expensive locations;
       •	 Was environmentally acceptable; and,
       •	 Demonstrated strong community acceptance for an agro­
          defense research facility.

DHS Evaluation Team Conducted Site Visits

Members of Congress expressed concerns regarding how DHS
researched and assessed the prospective NBAF site workforce,
research capabilities, consortia in-kind offers, and state or local
support or opposition. During April and May 2007, evaluation
teams consisting of DHS, DHHS, and USDA employees visited
the 17 NBAF sites. DHS selected its team members based on their
evaluation criteria expertise.

The purpose of the visits was to verify the information provided
and representations made in the EOI submissions and additional
information submitted; view any observable physical conditions
and constraints at the proposed site; and, if applicable, view the
site's utilities and infrastructure.

We interviewed NBAF evaluation team members who conducted
the site visits, and representatives from all of the consortia visited.
We reviewed plans developed for the site visits and letters sent to
the consortia in advance and we reviewed documents generated as
a part of these visits. There was no evidence that the evaluation
teams provided an unfair advantage for any consortium

In advance of these visits, DHS asked consortia to prepare updated
information to respond to specific questions about their site; advise
regarding their site’s suitability to the NBAF mission criteria; and
confirm offers for in-kind contributions and other support. DHS
notified each consortium by letter that the committee visits would
be tightly scheduled with an identical timeline and scripted
delivery of information that included a:

    •	 30-minute DHS presentation on the selection process and
       criteria;
    •	 2-hour presentation from consortia on the requested site
       additional information;
    •	 1 ½ -hours or less for lunch and an evaluation team 

       question and answer session; 

    •	 3-hours or less to tour potential site; and,



 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 20

    •	 1-hour or less for a wrap-up discussion and final question
       and answer session.

Also in advance of the site visit, DHS sent each consortium a
detailed list of site and consortia–specific questions and issues for
clarification. For example, DHS asked consortia for:

    •	 Information on utility easements on the site; details
       regarding the provision of the required utilities for chilled
       water, distilled water and steam;
    •	 Their intent regarding in-kind contributions;
    •	 Clarification of plans to provide the necessary linkages to
       the agricultural and veterinary expertise, infrastructure, and
       programs required for the NBAF mission;
    •	 Their plans to recruit and retain the necessary scientific
       staff and workforce at the proposed site; and,
    •	 Challenges of recruiting and maintaining the necessary
       staff at a rural location.

To ensure consortia received the same information during the
committee visit, the steering committee chair made the same
presentation at each location. DHS informed consortia that the
group would only accept (1) a copy of the consortium’s
presentation given during the site visit and (2) additional
information that clarified or responded to information requested by
the committee.

During the scripted presentation, the steering committee chair
delivered information from prepared slides on the NBAF criteria
and preferences, the selection process, and selection schedule.
DHS only accepted written questions from the consortia. DHS
posted all questions and its official answers on the NBAF website
after concluding the site visits.

The Under Secretary was Authorized to Add Sites for Further
Consideration

Members of Congress expressed concern regarding DHS’
methodology to identify the final six sites, specifically, that the
Under Secretary placed subjective emphasis on certain strengths
and weaknesses while appearing to ignore the steering committee’s
numerical scores. During DHS’ July 2007 selection to five sites,
the Under Secretary added the Flora Industrial Park Site in Flora,



 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 21

Mississippi and shortly thereafter added the Plum Island site.
Congress questioned whether the Under Secretary actually made a
truly objective and merit-based decision. We did not identify any
evidence that the Under Secretary favored a particular site.
Increasing the number of finalists from five to six had no affect on
which site was ultimately selected.

The Under Secretary Disagreed with the Steering Committee’s
Assessment of Flora, Mississippi Site

On July 10, 2007, DHS issued its Final Selection Memorandum:
Site Selection for the Second Round Potential Sites for the NBAF.
This memorandum described the process used and provided
specific details of the selection process to decide the final list of
potential NBAF sites. Although the Under Secretary was
responsible for considering the steering committee’s
recommendations, he also had the authority to include additional
sites based on his discretion. In addition to naming the Georgia,
Kansas, North Carolina, and Texas sites among the finalists, the
Under Secretary also included the Mississippi site, despite the fact
that the Steering Committee ranked 13 sites higher. This decision
was subjective in that he acted based on what he believed to be a
significant strength of the consortium. Although the Under
Secretary had the discretion to include additional sites if he
determined that it was in the best interest of the government, the
addition of the Mississippi site created the perception that he
favored a particular site.

In the memorandum, the Under Secretary stated that, “My decision
is the result of my integrated assessment and evaluation of the
strengths, weaknesses, and risks associated with each proposed site
against DHS’ evaluation criteria and preferences. The
memorandum documents the basis for the selection decision for
each site and it provides the following discussion of the decision to
include the Flora, MS site in the final group of five (the Plum
Island site was added later):

         “Based on the final evaluation results presented by the
         Steering Committee, as reported to and discussed with me
         by the Steering Committee Chairperson, I evaluated the
         information submitted by the consortia and personally
         visited each second round potential NBAF site, giving
         careful consideration to each of the evaluation criteria and
         DHS preferences set forth in the Site Selection Plan and


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 22
 

         their relative weighting. The adjectival ratings and
         corresponding numerical scores appearing in the following
         discussion of the proposed sites (both those I selected and
         those I did not select as reasonable alternatives in the
         Notice of Intent for the NBAF Environmental Impact
         Statement Process) result from the evaluation process
         followed by the Criteria Committees and the Steering
         Committee. This evaluation process is described at the
         beginning of this Final Selection Memorandum. I took the
         Steering Committee’s adjectival ratings and numerical
         scores for each site into strong consideration; but, as my
         discussion below illustrates and as the Selection Authority,
         I at times placed emphasis on certain strengths I saw in a
         proposal which offset certain weaknesses. On other
         occasions, I found certain proposal’s weaknesses as more
         insurmountable than the Steering Committee had and,
         accordingly, those weaknesses offset the proposal’s
         strengths.”

Specifically addressing the addition of the Flora, Mississippi site,
the evaluation committee scoring, and steering committee
recommendation for the Flora, Mississippi site, the Under
Secretary stated:

         “I note that the Research and Workforce Committees
         provided the consortium low scores in both the Research
         and Workforce evaluation categories and, while I take the
         Committees’ concerns to heart, I do not concur with the
         low scores they assigned for their respective evaluation
         criteria due to the Battelle led consortium’s proposed
         workaround (“when built, they come”) which I found to be
         a significant strength offsetting what otherwise would have
         been a significant weakness.”

Explaining his rationale for adding the Flora, Mississippi site, the
Under Secretary stated that he understood the ramifications of the
decision, and reiterated that he sincerely believed the site deserved
to be included among the finalists.

The Under Secretary’s Addition of the PIADC Site to the Final List
of Potential Sites Met NEPA EIS Standards and was Documented

After the NBAF site selection process was underway, the Under
Secretary decided to add the Plum Island Animal Disease Center


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 23

site to the final group of prospective sites. In a memorandum for
the record entitled, An Addendum to the Final Selection
Memorandum for the Site Selection for the Second Round
Potential Sites for the NBAF, dated November 6, 2008, the Under
Secretary documented the basis for that decision. He explained
that:

         “During the site selection process to identify possible
         locations for the NBAF, the Department of Homeland
         Security did not believe it was appropriate to respond to its
         own Request for an Expression of Interest (EOI) with a
         property owned and managed by DHS… however, Plum
         Island is included in the NBAF selection process for
         evaluation concurrent with the five mainland sites because:

         1) Plum Island appears to meet the NEPA requirement that
         the proposing Federal agency evaluate the range of all
         “reasonable alternatives” to a proposed action; and

         2) PIADC currently fulfills a portion of the NBAF mission
         and potentially meets some of the NBAF evaluation
         criteria, including: Proximity to Research by performing
         Biosafety Level (BSL)-3/3AG research on three foreign
         animal diseases (FADs); Proximity to Workforce by having
         an existing skilled workforce in a BSL-3/3Ag environment;
         and, Acquisition Construction and Operations by the
         availability of Government-owned property.”

The addendum explained that DHS’ evaluation of the Plum Island
site used the same evaluation process it applied to all of the other
sites it considered for the July 2007 second selection of potential
NBAF sites. DHS based its assessment on the evaluation criteria it
published in the initial Public Notice Soliciting Expressions of
Interest (EOIs) for Potential Sites for the NBAF. It was also based
on preferences DHS communicated to all second round potential
NBAF sites by letter on December 8, 2006, and additional
information collected by evaluation team members and the
Selection Authority during site visits.

In August 2008, DHS re-convened the criteria evaluation
committees who conducted the pre-EIS site selection process for
prospective sites. The evaluation committees used the evaluation
criteria and preferences to assign scores and ratings to Plum Island.




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 24

The steering committee evaluated the criteria committees’ scores
for Plum Island and included them as part of the addendum.

DHS Informed the Public Regarding NBAF Criteria and
Preferences Including In-Kind or Other Support

Congress also raised concerns that DHS did not communicate
openly about the importance of in-kind contributions. DHS
demonstrated in its earliest planning that it was considering how it
would accept in-kind contributions and cost share opportunities for
the NBAF. DHS stated in the EOI that submissions were the first
step in a process, and that it would ask for more information from
the interested consortia during a subsequent stage of the site
assessment process, which it did. After receiving responses to the
EOI, DHS articulated that it preferred, but did not require, in-kind
contributions or other offers of support, and its process for
collecting, assessing, and scoring in-kind contributions from
interested consortia was reasonable.

In its December 2006 Report to Congress in Response to Senate
Appropriations Report 109-273, DHS noted that Section 507 of the
FY 2004 Authorization Act (P.L. No. 108-90) provided DHS with
general gift acceptance authority and authority to accept in-kind
contributions (cash, real property, and personal property). Using
this gift acceptance authority, in September 2009 DHS
provisionally accepted the land offered by the State of Kansas at
the Manhattan Campus site. Senior DHS officials identified their
preference for in-kind contributions during initial planning
meetings.

DHS initiated broad contact with the public regarding the NBAF
site opportunity, criteria, and preferences in both the January 19,
2006, EOI, published in the Federal Register and the January 17,
2006, publication of Federal Business Opportunities. These
announcements provided background on the proposed NBAF and
its research mission, defined the four site criteria categories, and
described the information required from interested consortia.
Initial responses to the EOI were limited to 20 pages. DHS stated
that the EOI “was the first step to consider site options” and it
“reserved the right to request additional information and
clarifications from consortia whose submissions were deemed
worthy of further consideration based on the evaluation of their
submitted materials.”




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 25

DHS accepted questions from the public and interested parties, and
prospective responders to the EOI through February 16, 2006.
DHS published common questions and answers in a Frequently
Asked Questions list available to the public on the website
www.dhs.gov/NBAF. The website was the primary method for all
official communications to and from interested parties. It was
linked to the Federal Register EOI, to NBAF and Plum Island fact
sheets, and to descriptions of NBAF next steps and process for
public involvement.

In its response to the Frequently Asked Questions, DHS stated that
it would consider and evaluate “all viable options for the NBAF
location,” as well as “all viable options for how the site was
obtained.” It stated that the method of acquiring the facility would
be handled under a separate competitive procurement. Asked
whether it “will take into consideration cost sharing opportunities,”
DHS answered that it “strongly encourages cost sharing including
cost sharing in-kind from state and local jurisdictions that could be
applied toward construction and operations of the NBAF.”

In December 2006, DHS wrote letters to each of the 17 consortia
to communicate its preference for in-kind contributions. Along
with detailed information on next steps in the process, DHS
advised that it would “give strong preference to consortia with title
to a minimum 30-acre site, deeded “at no cost or minimal cost to
the Federal Government through in-kind contribution, sale, or quit
claim.” In its letter, DHS also stated that it would “give strong
preference” to offers of “in-kind contributions, e.g., deeded land at
no cost rather than sale, new utility provisions and/or
upgrades,e.g., sewer, electricity, water, chilled water, steamed
water, etc., and new roadways” offered to DHS by the consortium,
state government, local government, or private entities.

In our interviews with representatives of the five final consortia,
four consortia stated that DHS had made its preference for in-kind
contributions very early in the site selection process. These four
were aware of the importance of in-kind at least mid-way through
the process. One consortium underscored that there was early and
clear communication on this topic and stated “DHS’ interests in in-
kind contributions were stated in the very first NBAF site selection
process announcement.”

The June 2006, Results of NBAF EOI Review, described the
consideration of “in-kind, matching or 3rd party financing


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 26

     contributions” as one facet of the criteria committee’s Community
     Acceptance sub-criteria review. DHS described the methods used
     by criteria committee members to “record, assess, and score in-
     kind contributions” in the May 24, 2006 Expression of Interest
     Selection Plan for Potential Sites for NBAF.


Meetings with the Under Secretary Created Perceptions
That Some Consortia Gained an Unfair Advantage
     Under Secretary Visits to Prospective NBAF Sites

     During April 2007, the Under Secretary visited the 17 prospective
     NBAF sites. Letters from the Science and Technology Directorate
     Chief of Staff were sent to all the consortia in advance of the site
     visits advising them that the purpose of the site visit was “to gain
     firsthand knowledge of your consortium's potential NBAF
     location.” The letters DHS sent to consortia providing guidance on
     the Under Secretary’s site visits did not prohibit or limit the
     participation of elected officials. Other than the letters, there were
     no other written ground rules addressing interaction with elected
     officials during his visits to prospective NBAF sites. Elected
     officials did meet with the Under Secretary during his visits to
     prospective sites. We could not substantiate that these meetings
     affected the site selection process.

     The fact that one or more consortia believed that elected officials
     were prohibited from such meetings created a perception that
     elected officials were attempting to, and had, influenced the site
     selection process. According to the letters to the consortia:

              “DHS is managing the site selection similar to a
              competitive acquisition to ensure that a rigorous selection
              process is followed. Fairness, integrity, and transparency
              are extremely important to DHS and we are very serious
              about treating each consortium fairly and equally. To that
              end, please respect the request not to provide additional
              handouts or presentations to Under Secretary Cohen.
              Under Secretary Cohen's visit is strictly a viewing of the
              physical site.”

     Additional conditions and ground rules established for the visit
     were communicated in the letter: Consortia were informed that



      Review of the National Bio and Agro-Defense Facility 
 

                     Site Selection Process
 


                            Page 27

any information they wished to provide to DHS in response to the
Steering Committee's requests for clarifications should be provided
directly to the Steering Committee during its site visit. The entire
site visit process was closed to the press and consortium
representatives were limited to three people. The Under Secretary
allocated one hour for each site visit, and DHS arranged his travel
to the site.

The Under Secretary told us his main two ground rules were: “No
written briefs were to be delivered; and, no “step aside” meetings
with politicians. One of the consortia stated it recalled being told
verbally by the steering committee chairperson that elected
officials were prohibited from attending the Under Secretary site
visits. Another consortium stated it was told in advance, who
could interact with the Under Secretary or the Steering Committee
during site visits. However, other consortia did not recall that a
DHS official delivered such a prohibition verbally or in writing.

According to the Under Secretary, each of the consortia “had
broken different rules” set forth by DHS in the April 18, 2007,
letter, in addition to his request for “‘no politicals.’” He stated, “all
had overstepped the rules set” for the site visit. During the site
selection process, consortia were hearing information about each
other's Under Secretary site visits. Two consortia stated they heard
some consortia did not adhere to DHS’ instructions about access
by politicians.

Several consortia and the Under Secretary described short “meet
and greet” sessions that were conducted by some national level
political figures. Three of the five consortia recall national and
local political leaders participating in site visits. Of those three,
one consortium stated a local elected official drove the Under
Secretary to a few places including the potential NBAF site. The
Under Secretary mentioned he also had breakfast with this official
without the presence of other individuals.

During another site visit, both the consortium and the Under
Secretary mentioned an “overland” view of the potential sites via
helicopter. Reports of this visit surfaced in the media, which
added to other consortia’ perceptions of partiality and unfairness.
The Under Secretary refuted allegations made about this visit,
stating “in hindsight, he is still glad he went and “eyeballed” each
site to see the lay of the land, to take in any considerations for




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 28

threats from terrorism.” The Under Secretary did not observe
anything improper during his site visits.

Meetings with the Under Secretary in Washington, DC

The Under Secretary stated he had an open door policy and
welcomed the opportunity to speak with consortia representatives
or any elected officials in Washington, DC during the selection
process. We confirmed there were no restrictions to meeting with
the Under Secretary in his office. However, DHS did not formally
notify consortia that the Under Secretary would honor meeting
requests by consortia or elected officials. All of the final five
consortia agreed they did not receive any information on political
contact with the Under Secretary and confirmed that the Under
Secretary granted elected officials access to him.

Steering Committee members and the Office of General Counsel
(OGC) attorney advised were concerned about potential
perceptions stemming from these meetings. Despite their
warnings, the Under Secretary met with anyone who wanted to see
him, and as far as they knew did not decline to meet with any
elected official.

We determined that during the site selection process, the Under
Secretary met with elected officials representing four of the five
final consortia. On some occasions, consortium representatives
and elected officials were present. When the Under Secretary met
with any elected official, there was an S&T official present. Both
the Under Secretary and NBAF program officials described the
meetings as very brief, lasting only about 30-45 minutes, and
informational only. One DHS official stated, “these meetings were
a ‘waste of time’ because the Under Secretary only relayed that
DHS was conducting a transparent process.” One consortium
representative stated the Under Secretary “insisted they not bring
any documents” to the meeting.

The Under Secretary as well as consortia representatives
anticipated that political leaders would take an interest in the
NBAF process and want to show their support, and the Under
Secretary was not concerned about impairing his own objectivity.
One DHS official stated elected officials were aggressively
pursuing “the opportunity to visit the Under Secretary in
Washington to promote the ‘we are fighting for you’ objective to




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 29

constituents.” In one instance, there were approximately 20
individuals representing their consortium.

The majority of the final five consortia believed this aspect of the
process was “to be expected” but not necessarily “inappropriate.”
Yet the lack of established ground rules on visits in Washington
created a perception that the Under Secretary afforded some
consortia’s delegations greater access. Although the Under
Secretary did not seek these meetings and we could not
substantiate that these meetings compromised the NBAF site
selection process, DHS may have benefitted by limiting the
number of times a consortium could meet with the Under
Secretary.

The Under Secretary Appointed a Bio Scientist Affiliated with the
Kansas (Heartland Bio Agro Committee (HBAC)) to the Homeland
Security Science and Technology Advisory Committee

In July 2007, the Under Secretary re-appointed a bio-scientist to
the Homeland Security Science and Technology Advisory
Committee who was affiliated with the Kansas Heartland Bio Agro
Facility Consortium that was bidding for the NBAF site. The
committee serves as a source of independent, scientific, and
technical planning advice for the Under Secretary. The bioscientist
has been a board member of the Kansas BioScience Authority
(KBA) since its inception. The KBA and Kansas State University
formed the Kansas HBAC. Having been appointed to this advisory
position, it raised concerns that not only did the bio-scientists have
unique access to the Under Secretary and could leverage that
access to help the Kansas consortium, but that the Under Secretary
had pre-selected the Kansas consortium. That the bioscientist met
with the Under Secretary in his office in March 2007 while
representing the Kansas consortium added to the speculation that
the site selection process was tainted.

The bioscientist was familiar to S&T officials who recommended
his reappointment to the Under Secretary because he had served on
the committee previously. Then-Under Secretary Dr. Charles E.
McQueary first appointed him to the committee in February 2004
due to his expertise in biosciences, and he served on the committee
until it suspended activities in 2006.

We interviewed both the Under Secretary and the bioscientist
about his appointment, their relationship, the meeting in the Under


 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 30

Secretary’s office, interaction between the Under Secretary and the
committee, and whether they ever discussed the NBAF process
during committee meetings. The Under Secretary asserted he was
unaware of the member’s affiliation with the Kansas consortium,
that his appointment had nothing to do with the NBAF mission,
and it was an oversight by S&T officials vetting potential
committee members. The Under Secretary said he had little
interaction with the whole committee and no one-on-one
conversations with this committee member. He stated that the
committee member never made a direct representation on behalf of
the Kansas consortium to him or the steering committee.

As a board member for one of the two entities comprising the
Kansas consortium, the committee member described that
“listening in on phone calls” was the extent of his involvement in
the NBAF process. Based on his description of his involvement,
we surmised that he did not spearhead the Kansas HBAC effort
and did not attempt to use his position on the committee to advance
the interests of the Kansas HBAC. He acknowledged that he
attended the meeting with the Under Secretary but did not
participate in the discussion. He also stated at the end, he felt like
it was a waste of his time because others did most of the talking
and he did not contribute anything.

The Under Secretary did not intend to influence the steering
committee or undermine the site selection process. In addition, the
committee member’s ability to influence the outcome of the site
selection process was mitigated by the lack of interaction with the
steering committee, which recommended the Kansas site to the
Under Secretary.




 Review of the National Bio and Agro-Defense Facility 
 

                Site Selection Process
 


                       Page 31
 

Appendix A
Purpose, Scope, and Methodology

                   We conducted this review in response to a request from 17
                   members of Congress representing congressional districts in Texas
                   and Georgia who expressed concerns that the NBAF site selection
                   process appeared to be biased and inconsistent with federal law.

                   Our objectives were to determine whether S&T completed the
                   NBAF Environmental Impact Statement (EIS) according to the
                   National Environmental Policy Act; how the directorate
                   established, assessed, weighed, and scored site evaluation criteria;
                   why S&T did not inform the public of the importance of in-kind
                   contributions in the first public notice requesting Expressions of
                   Interest; and S&T’s rationale for allowing the public only 30 days
                   to comment on the final EIS. We also gathered information and
                   data relative to a concern that S&T officials afforded some
                   delegations greater access, or were inappropriately lobbied.

                   We interviewed S&T staff and contractors, representatives of other
                   federal agencies including the U.S. Department of Agriculture, and
                   others who managed or participated in the NBAF site selection
                   process. These interviews included the NBAF steering and
                   evaluation committees, and the former Under Secretary. We
                   interviewed individuals representing the consortia that submitted
                   Expressions of Interest for the NBAF site.

                   We collected and reviewed documents and records relevant to the
                   development of the NBAF Environmental Impact Statement,
                   including public meetings and materials requested from consortia
                   during the EIS process. We gathered information and documents
                   relevant to S&T officials’ interaction, contacts, and
                   communications with the consortia and elected officials. We
                   traveled to two of the five final sites under consideration—
                   Manhattan, Kansas and San Antonio Texas--to interview
                   concerned parties and collect documents.

                   We performed fieldwork from August 2009 to May 2010. Our
                   review was conducted under the authority of the Inspector General
                   Act of 1978, as amended, and according to the Quality Standards
                   for Inspections issued by the President’s Council on Integrity and
                   Efficiency.




                    Review of the National Bio and Agro-Defense Facility 
 

                                   Site Selection Process
 



                                          Page 32
 

Appendix B
Management Comments to the Draft Report



                                                                                    nder f!c1'Crury J()r   ,nee arid Technology
                                                                                    ~. Ik""rtm nl or Hom.rond S«udly
                                                                                   Wa.,hlllginn.. 20528


                                               October 6 2010                      Homeland
                                                                                   Security
           Mr. Richard L. kinner
           Inspector Ocneral
             . . Department of Homeland ecurity
           Washington, DC 20528

            Dear Mr.   kinner:

           Thank you for the opportunity to re iew and comment on the Office oflnspector Oeneral
           (010) Draft Report: Review ofthe National Bio and Agro-Defense Facility (NBAF) Site
            election Process.

            Following a tlu'ee-year site selection process the Department of Homeland ecurity
            (DH ) considered environmental impacts, public comment on the BAF Draft
              nvironmentallmpact tatement (DEI ) and the Final EI (FEI ), national policy
            evaluation criteria, threat and risk asses ment . costs site characterizations. ecuriry, and
            other programmatic requirements in its decision to site, cOnstruct. and operate the BAr
            in Manhatlan, Kan as. Upon con ultation with then ecretarie of Homeland ecurity
            and Agriculture, the former Under ecretary for cience and Technology acting a the
            site election Authority, accepted the unanimou recommendation of the teering
            Commitlee (comprised of Federal employee subject matter experts) and selected
               anhattan, K as the ite for the B F.

            We concur with the 010 draft report conclu ions that DH carried out the site election
            process fairly that oro found no evidence of bia . that OJ-! adhered to requirement
            contained in Congressional appropriations and the ational Environmental Policy Act
            (N PAl, that Federal subject matter experts established ound evaluation criteria lhat
            resulted in comprehen ive a e ment of all pro p cti e sites, and that 01 I informed
            the public of the importance of in-kind contributions and weighed that evaluation factor
            fairly. 010 determined that the nder ecretary for cience and TeclulOlogy's decisions
            during the ite selection process were not predetemlined and that 010 could not
            substantiate the allegation, from orne of the competing on ortia, thaI meeting between
            elected officials and the Under ecretary for cience and Technology affected the site
            selection proce . Additionally, 010 found that the Under ecretary' appointment of a
            representative from the Kansas Heartland Bio Agro Con ortium to the Homeland
            Security &T Advisory Commitlee was not an attempt to influence and did not
            influence, the site election process.

            We would like to clarify a few points in the 010 report (on pages 5 and 11) relating to
            the public comment period during the El . 01 [ doe not oncur with the 01
            comments that the Department "hastily" considered any last-minute comments to the
            FEIS when it issued the FE! "only days after" the comment period closed (page 5 of the
            010 report) or that there wa a 'hasty timing ofthc ROD' which created perceptions that



                                                                                   www.dhs.gov




                        Review of the National Bio and Agro-Defense Facility 
 

                                       Site Selection Process
 



                                                 Page 33
 

Appendix B
Management Comments to the Draft Report




           DHS did not adequately consider comments in the EIS (page 11 of the 010 report). On
           page I I. 010 stated that DHS complied with NEPA comment period requirements and
           expanded comment periods when it "could:' DHS expanded the public comment period
           for the EIS scoping period by 30 days and the DEIS by 15 days not because DHS "could"
           do it, but because the length and complexity of the EIS scoping process and DEIS review
           warranted the additional time. Moreover. DHS issued the Record of Decision (ROO) on
           January 16. 2009 in the Federal Register. four days after the minimum required 30-day
           comment period, because additional time was not warranted. All comments were
           thoroughly reviev.'ed and considered in preparation of the FEIS and the ROO. All on-time
           comments were addressed in the FEIS and all late comments (receh'ed after the public
           comment period deadline) were collected. placed into issue categories. and responded 10
           in the FEIS as late comments to the extent practicable. None of the late comments
           substantially differed from the comments received before the close of the comment
           period. Therefore. neither the FEIS nor the ROD was in fact published in a hasty manner
           or done so in a manner that could create that perception.

           We submitted technical and editorial comments under separate cover for your use in
           preparing the final report, If you have any questions concerning this response, please
           contact Mr. James Johnson (Director, Oflice of National Laboratories) at 202-254-6098
           or Jam~'s.Johnson21//'dhs.gov.



                                                Sincerely,

                                                    ~..          O'a
                                               Tara O'Toole. M.D., M.P.H.
                                               Under Secretary for Science and Technology



           cc:    Mr. Rolf A. Dietrich
                  Deputy Under Secretary for Science and Technology (Acting)

                  Mr. James Johnson
                  Director. Office of National Laboratories

                  Ms. Nicole Marcson
                  Assistant General Counsel for Science and Technology, Office of the
                  General Counsel




                       Review of the National Bio and Agro-Defense Facility 
 

                                      Site Selection Process
 



                                               Page 34
 

Appendix C
NBAF Chronology

                                 NBAF Chronology


2006
•	 FY 2006-           FY06 Appropriations Bill
                            Congress appropriated $23 Million for NBAF. The Act
                            provided DHS with $23 million “to select a site for the
                            National Bio and Agro defense Facility” and to “perform
                            other pre-construction activities.”

• January 19, 2006- Notice of Request for Expression of Interest (EOI) for
                    Potential Sites
                           DHS entered Expressions of Interest (EOI) in the Federal
                           Registry requesting submissions from federal, state and
                           local government agencies, industry, academia, and other
                           interested parties and organizations.

•	 February 2006-     FAQ on DHS Website
                           S&T accepted questions from the public and interested
                           parties, and prospective responders to the request for
                           expressions of interest through February 16, 2006. DHS
                           published a Frequently Asked Questions (FAQ) list
                           available to the public on the website www.dhs.gov/NBAF.
                           This document provides more information on cost sharing.

•	 March 31, 2006-    EOI Submissions Received
                            S&T received 29 proposals for potential sites from
                            respondents of the EOI.

•	 August 9, 2006-    First Down Selection
                             After evaluating proposals against four evaluation criteria,
                             DHS narrowed the list of sites from 29 to 18 sites (one site
                             dropped out of the process).

•	 August 9, 2006-    Non-select Letter
                            Notifications of non-selection were sent to AL, AR, AZ,
                            CO, DC, FL, IA, NM, ND, and PA.

•	 December 8, 2006- Select Letter/Request for Additional Information
                            S&T sent a letter requesting additional information to each
                            of the potential sites (17) selected in the first down
                            selection for further evaluation. DHS communicated its
                            preference for in-kind contributions in this letter.


                       Review of the National Bio and Agro-Defense Facility 
 

                                      Site Selection Process
 


                                             Page 35
 

Appendix C
NBAF Chronology

(February 16, 2007-Deadline for Responses)
2007
•	 April –May 2007- Steering Committee Site Visits
                           Committees visited the 17 sites to verify submitted
                           information, visit physical site location and infrastructure.
                           In advance of the site visits, each consortium was notified
                           by letter on April 7 that the committee visits would be
                           tightly scheduled with an identical timeline and scripted
                           delivery of information.

•	 April 2007-        Under Secretary Site Visits
                            Under Secretary visited the 17 sites to verify information,
                            visit physical location and infrastructure. In advance of the
                            site visits, each consortium was notified by letter on April
                            18 that the committee visits would be tightly scheduled
                            with an identical timeline and scripted delivery of
                            information.

•	 July 2007-         Second Down Selection/Final Selection Memorandum
                            After further evaluation of the remaining sites, DHS went
                            from 17 to 6 prospective sites.

•	 July 31, 2007-     Notice of Intent (NOI)
                             S&T issued the Notice of Intent (NOI) to prepare an
                             Environmental Impact Statement (EIS), which initiated the
                             evaluation of the environmental impacts of constructing
                             and operating the NBAF at the five prospective sites, plus
                             the Plum Island site.

•	 August-Sept 2007- Scoping Meetings
                           DHS sought public comments and conducted scoping
                           meetings at prospective sites. Written and oral comments
                           were collected for the EIS scope.


2008
•	 February 29, 2008- “Best and Final” Offer Letter
                             S&T provided consortia the opportunity to validate
                             previously submitted in-kind information. Via letter, they
                             requested consortia finalize and confirm in-kind
                             contributions and other support (offsets to infrastructure
                             costs).



                       Review of the National Bio and Agro-Defense Facility 
 

                                      Site Selection Process
 


                                             Page 36
 

Appendix C
NBAF Chronology

 (March 31, 2008-    Deadline for Responses)


•	 June 2008-        Draft Version of EIS
                            DHS issued NBAF Draft EIS to obtain public comments.

•	 July-August 2008- Public Meetings
                            S&T conducted these meetings to present criteria used in
                            the selection process and collect public comments on the
                            Draft EIS.

•	 November 2008- Steering Committee Site Recommendation
                         The Steering Committee presented their unanimous site
                         recommendation to the NBAF Selection Authority (Under
                         Secretary).

•	 December 2008-    Issued Final EIS/
                     Preferred Alternative Memorandum
                            DHS announced the Manhattan, KS as the preferred
                            alternative site, which was released to the press on
                            December 5, 2008.


2009
•	 January 16, 2009- Record of Decision (ROD)
                           On January 16, 2009, DHS published its Record of
                           Decision (ROD), which announced the Manhattan Campus
                           site in Manhattan, KS as the preferred NBAF site
                           alternative. The ROD was based on the information and
                           analysis in the NBAF final Environmental Impact
                           Statement, including how each site was rated against the
                           evaluation criteria.




                      Review of the National Bio and Agro-Defense Facility 
 

                                     Site Selection Process
 


                                            Page 37
 

Appendix D
Major Contributors to this Report

                    William J. McCarron, Chief Inspector
                    Jim O’Keefe, Senior Inspector
                    Shawntae Brown, Inspector




                     Review of the National Bio and Agro-Defense Facility 
 

                                    Site Selection Process
 



                                           Page 38
 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Executive Secretary, Science and Technology Directorate

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                       Review of the National Bio and Agro-Defense Facility 
 

                                      Site Selection Process
 



                                             Page 39
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
